        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
Funded under the American
Recovery and Reinvestment Act for
the State of Wisconsin




OAS-RA-11-07                               May 2011
                                  Department of Energy
                                    Washington, DC 20585
                                           June 6, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY


FROM:                    George W. Collard
                         Assistant Inspector General
                           for Audits
SUBJECT:                INFORMATION: Audit Report on “The Department of Energy’s
                        Weatherization Assistance Program Funded under the American
                        Recovery and Reinvestment Act for the State of Wisconsin”
BACKGROUND
The Department of Energy's Weatherization Assistance Program (Weatherization Program)
received $5 billion under the American Recovery and Reinvestment Act of 2009 (Recovery Act)
to improve the energy efficiency of homes, multi-family rental units and mobile homes owned or
occupied by low-income persons. Subsequently, the Department awarded a 3-year
Weatherization Program grant for $141.5 million to the State of Wisconsin (Wisconsin). This
grant provided an eight-fold increase in funds available to Wisconsin for weatherization
compared to the $15 million that was authorized in Fiscal Year (FY) 2009.
Wisconsin's Department of Administration, Division of Energy Services, administers the
Weatherization Program through 20 local agencies. These agencies are responsible for
evaluating the energy efficiency of homes, performing weatherization work, and conducting
inspections. Typical weatherization services include installing insulation, sealing ducts, tuning
and repairing furnaces, and mitigating heat loss through windows, doors, and other infiltration
points. Per Wisconsin State law, local intake agencies in each of the State's 72 counties and
8 tribes process applications for all State and Federal energy assistance. These agencies, for the
most part, are independent of the State and local weatherization agencies.
Given the significant increase in funding and the demands associated with weatherizing
thousands of homes, we initiated this audit to determine if Wisconsin had effectively managed its
Weatherization Program. To perform our audit, we analyzed Wisconsin's management of the
Weatherization Program and examined the weatherization activities of three local agencies,
Ashland County Housing Authority (Ashland), La Casa de Esperanza, and Racine/Kenosha
Community Action Agency. The agencies represented 17 percent of the State's total funds and
11 percent of the 20,700 units expected to be completed by March 2012.
CONCLUSIONS AND OBSERVATIONS
We identified opportunities to improve Wisconsin's Weatherization Program in the areas of
retaining documentation of applicant eligibility for weatherization services and maintaining
separate accounting for Recovery Act spending. Specifically, we found that:

   •   Wisconsin had not required intake agencies to retain supporting documentation to verify
       applicant eligibility for Weatherization Program services. State officials informed us that
       they had relied on a 1983 Department memorandum stating that "copies of the documents
       themselves need not be retained." While the Department's current Weatherization
       Program guidance requires recipients to maintain records documenting the eligibility of
       applicants for assistance, it does not prescribe the type of documentation to be retained.

       Ashland had not separately accounted for Recovery Act funding. Rather, Ashland
       accounted for Weatherization Program Recovery Act funds together with weatherization
       assistance funds received from three additional Federal and State programs. The
       Recovery Act established a goal of increased transparency and required that recipients
       separately account for activities funded by the Act. Ashland officials told us that, as a
       result of our audit, they have modified their accounting system to separately account for
       Recovery Act expenditures.

                    Documentation of Eligibility for Weatherization Services

Wisconsin had not required its 80 intake agencies to maintain eligibility documentation such as
W-2s, payroll check stubs, or social security benefit statements, to verify applicant eligibility for
weatherization services. State weatherization agencies relied on certifications of applicant
eligibility prepared by intake workers. State guidance does not specifically require intake
agencies to obtain and maintain original documentation such as wage statements. In fact,
Wisconsin allows intake either over the phone, via the web or in person. Wisconsin uses a one-
stop application process for multiple energy assistance programs for approximately 250,000
applicants each year. The one-stop application is the basis for determining an applicant's
eligibility for all of the energy assistance programs in the State. State officials told us that they
had relied on 1983 Department guidance requiring agencies to retain intake workers'
certifications attesting to the eligibility of recipients but not the source documentation underlying
the certification.

The Department's September 2010 and April 2011 guidance on eligibility, issued as a result of a
series of Office of Inspector General reports on the implementation of the Weatherization
Program, established and reinforced requirements regarding the retention of documentation.
Specifically, the September 2010 guidance reminded grantees and subgrantees that "to the
maximum extent practicable, proof of income eligibility and the associated documentation
should be included in the client file." The guidance further stated that should eligibility be
determined by an outside agency such as the Low Income Home Energy Assistance Program or
the Department of Housing and Urban Development, then the certification of eligibility
completed by the agency would be considered sufficient documentation. The April 2011
guidance re-enforced the requirement that subgrantee files must contain evidence of eligibility
and noted that evidence may include "a memorandum from a third party certification office
stipulating the income levels of the family and source documentation for each income source
listed on the application."

Review and retention of income documentation is a significant control in mitigating the risks that
ineligible Weatherization applicants will receive services. In the absence of documentation, the
risks of fraud and abuse inherent in the Program increase. The importance of retaining
documentation verifying income was highlighted in the Government Accountability Office's
recent report on Greater Fraud Prevention Controls are Needed in the Low-Income Home Energy

                                                  2
Assistance Program (GAO-10-621, June 2010). The review found that LIHEAP is at risk of
fraud and improper payments. Specifically, the report noted that about 9 percent of households
receiving benefits totaling $116 million under LIHEAP, in 7 selected states, contained invalid
identity information, such as Social Security numbers, names, or dates of birth. Notably, 13 of
the 14 states we have reviewed to date retain wage and income source documentation, with
Wisconsin the exception.

                   Accounting for Recovery Act Weatherization Expenditures

Ashland, one of the three local agencies we reviewed, had not separately tracked and accounted
for Weatherization Program activities funded by the Recovery Act, as required. Ashland used
four funding sources to pay for weatherization expenditures: the Recovery Act Weatherization
Program, the Department's regular Weatherization Program, WHEAP, and the Wisconsin Public
Benefit Program. Ashland officials told us that they allocated costs among the four funding
sources based on weatherization activity. However, Ashland had not reconciled the costs
charged to the Weatherization Program to the homes weatherized. Accordingly, we were unable
to determine whether Ashland's cost allocation was appropriate and the costs charged to the
Weatherization Program were reasonable. As of October 2010, Ashland had spent $4.4 million
in total for weatherization activities associated with the 4 funding sources. Of this amount,
Ashland had charged the Weatherization Program approximately $3 million.

Ashland's accounting system did not comply with Recovery Act provisions and Department
policies requiring states and local agencies to separately account for and report Recovery Act
expenditures. Additionally, financial and accounting systems are required by Department
guidance to be revised as necessary to segregate, track, and maintain Recovery Act funds
separate and apart from other revenue streams. Further, Wisconsin's weatherization manual and
its contractual agreements with the local agencies required separate accounting for Recovery Act
funds. Nonetheless, Ashland officials stated that they were unaware of these requirements.

The State had not identified the lack of separate accounting for Recovery Act funds during its
on-site monitoring visits because those visits focused primarily on programmatic rather than
financial issues. Wisconsin officials told us that in an effort to supplement its monitoring of
financial activities, it had contracted with an independent accounting firm to provide technical
assistance and training to local agencies.

In response to our audit, Ashland officials told us that they developed a system to separately
account for Recovery Act expenditures. Department officials also told us that, as a result of our
finding, they have started to review Ashland's allocation of costs to the Weatherization Program.
Pending completion of the Department's review of Ashland's cost allocation, we question the
reasonableness of the $3 million charged to the Weatherization Program's Recovery Act funds.

RECOMMENDATIONS

To achieve the goals of the Recovery Act and the Department's Weatherization Program, we
suggest that the Acting Assistant Secretary for Energy Efficiency and Renewable Energy:




                                                 3
      1. Determine the appropriate level of documentation required to be retained to support
         applicant eligibility;

      2. Ensure that Wisconsin monitors local agency financial activities in accordance with
         requirements to separately account for Recovery Act expenditures;

      3. Complete the review of Ashland's allocation of costs to the Weatherization Program; and,

      4. Recover funds that may be determined to be unreasonable based on the Ashland cost
         allocation review.

MANAGEMENT COMMENTS

The Department concurred with the findings and recommendations contained in our audit report.
Department management responded that the State of Wisconsin had monitored its local agency
financial activities and had applied training and technical assistance resources to Ashland and
other sub-recipients to strengthen their local accounting systems. Also, the Department reported
that it had completed a review of Ashland's updated cost allocation plan and had determined that
it will be sufficient to separately account for various funding sources including Recovery Act and
regular formula Department funds. Finally, Department management stated that it had reviewed
the $3 million in questioned costs and reduced the Training and Technical Assistance part of the
Recovery Act award by $17,110 to account for an issue with cost allocation.

The State of Wisconsin stated that it was in full compliance with Department rules, regulations
and guidance regarding the determination of eligibility. Further, Wisconsin pointed out that
Ashland satisfactorily made corrections to its accounting processes to separately account for
Recovery Act funds and had developed cost allocation methodologies to prevent future concerns.

Management's actions are responsive to our recommendations. The Department's response,
along with the State's and Ashland's comments, are included in their entirety in Attachment 2.

Attachments

cc:      Deputy Secretary
         Acting Under Secretary of Energy
         Associate Deputy Secretary
         Chief of Staff




                                                 4
                                                                                    Attachment 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of our audit was to determine whether the State of Wisconsin had effectively
managed its Weatherization Assistance Program (Weatherization Program).

SCOPE

This audit was performed between April 2010 and April 2011, at Wisconsin's Department of
Administration in Madison, Wisconsin. We performed site visits to a local agency and to a large
multi-family unit facility overseen by the State. Further, an independent public accounting firm
under contract with the Office of Inspector General conducted site visits to two local agencies.

METHODOLOGY

To accomplish the audit objective, we reviewed and analyzed:

       Applicable Federal and state laws, regulations, and guidance pertaining to the
       Weatherization Program under the American Recovery and Reinvestment Act of 2009
       and Wisconsin's Weatherization Program;

       Wisconsin's State Plan for the Weatherization Program and the grant agreement with the
       Department of Energy;

       Applicant eligibility requirements and processes in place to approve applicants for
       weatherization services;

       General ledger and chart of account information to verify cost allowability and to trace
       expenditures to the corresponding source of funding;

       Pertinent Weatherization Program files and reports including weatherization measures
       installed in homes; and,

       The quality of weatherization work performed by three local agencies.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings based on our audit objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer processed data to accomplish our audit objective.

We held an exit conference on May 25, 2011.



                                                5
                                                                                    Attachment 2

                                    RELATED REPORTS


Office of Inspector General Reports

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of Energy's
Weatherization Assistance Program's internal control structures at the Federal, state, and local
levels. Although not found in every state, these audits have identified issues in areas such as
poor quality of weatherization services, inspections and re-inspections, inadequate inventory
controls, and questioned costs resulting from the ineffective administration of the weatherization
grants. Our series of audit reports include the following:

       Audit Report "The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act for the Capital Area Community Action
       Agency – Agreed-Upon Procedures" (OAS-RA-11-04, February 1, 2011)

       Audit Report "The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act for the City of Phoenix – Agreed-Upon
       Procedures" (OAS-RA-11-03, November 30, 2010)

       Audit Report "Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
       Implement the American Recovery and Reinvestment Act Weatherization Assistance
       Program" (OAS-RA-11-02, November 1, 2010)

       Audit Report "The State of Illinois Weatherization Assistance Program" (OAS-RA-11-
       01, October 14, 2010)

       Audit Report "The Department of Energy's Use of the Weatherization Assistance
       Program Formula for Allocating Funds Under the American Recovery and Reinvestment
       Act" (OAS-RA-10-13, June 11, 2010)

       Preliminary Audit Report "Management Controls over the Commonwealth of Virginia's
       Efforts to Implement the American Recovery and Reinvestment Act Weatherization
       Assistance Program" (OAS-RA-10-11, May 26, 2010)

       Special Report "Progress in Implementing the Department of Energy's Weatherization
       Assistance Program Under the American Recovery and Reinvestment Act" (OAS-RA-10-
       04, February 19, 2010)

       Audit Report "Management Alert on the Department's Monitoring of the Weatherization
       Assistance Program in the State of Illinois" (OAS-RA-10-02, December 3, 2009)




                                                6
                      Attachment 3

MANAGEMENT COMMENTS




         7
    Attachment 3 (continued)




8
    Attachment 3 (continued)




9
     Attachment 3 (continued)




10
                                                                 IG Report No. OAS-RA-11-07

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form.
